         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Audit of Environmental Cleanup
Projects Funded by the Recovery
Act at the Y-12 National Security
Complex




OAS-RA-L-11-02                      December 2010
DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


Memorandum
        DATE:    December 20, 2010                              Audit Report Number: OAS-RA-L-11-02
    REPLY TO
     ATTN OF:    IG-32 (A10RA010)
   SUBJECT:      Audit Report on "Environmental Cleanup Projects Funded by the Recovery Act at the
                 Y-12 National Security Complex"
           TO:   Manager, Y-12 Site Office

                 INTRODUCTION AND OBJECTIVE

                 In February 2009, the President signed the American Recovery and Reinvestment Act of
                 2009 (Recovery Act) into law. Part of the Recovery Act's purpose, relevant to the
                 Department of Energy (Department), was to invest in environmental protection.
                 Accordingly, the Department's Oak Ridge Office of Environmental Management (EM)
                 received $216 million of Recovery Act funds to perform environmental cleanup activities at
                 the National Nuclear Security Administration's (NNSA) Y-12 National Security Complex
                 (Y-12). These funds were allocated to seven projects addressing material disposition,
                 deactivation and demolition, and remediation. Y-12 is managed and operated by Babcox
                 &Wilcox Y-12 Technical Services, LLC (B&W Y-12). The NNSA Y-12 Site Office (Site
                 Office) is responsible for overseeing B&W Y-12, including its management of these
                 projects.

                 Due to the importance of the Recovery Act's investment in environmental protection, we
                 initiated this audit to determine whether Y-12 is effectively managing its environmental
                 cleanup activities funded by the Recovery Act. During the audit we reviewed three of
                 Y-12's seven EM Recovery Act funded projects, which accounted for $164 million of the
                 $216 million total funding. As of August 2010, Y-12 had awarded 428 subcontracts with a
                 total value of $39 million to support the three projects we reviewed. We analyzed nine of
                 these subcontracts valued at a total of $10 million.

                 CONCLUSION AND OBSERVATIONS

                 Our testing did not reveal significant project management problems with efforts at Y-12
                 which had been funded under the Recovery Act. For the specific projects reviewed, we
                 noted that the projects were ahead of schedule and under budget. In addition, Y-12 was in
                 compliance with Recovery Act requirements for segregation of funds and reporting
                 guidelines. We did identify instances where required terms were not incorporated into
                 subcontracts funded by the Recovery Act. For example:

                 A clause mandating compliance with several Recovery Act requirements lacked certain
                 important operating provisions and/or had not always been properly flowed down to project
                 subcontracts; and,
                                       2


       A control designed to prevent the employment of illegal aliens by requiring that
       employers verify employment eligibility with the Department of Homeland Security
       had been omitted from all Recovery Act subcontracts.

These clauses were designed to ensure that the Department enforced important Recovery
Act requirements and other contract requirements. Perhaps most importantly, their use
would have further reduced the risk of illegal aliens gaining access to Y-12. After we
notified them of the problem, Y-12 officials reported that they had taken actions to mitigate
these concerns.

                         Incorporation of Special Provisions Clause

Y-12 had not always either included or maintained an up-to-date American Recovery and
Reinvestment Act of 2009 Special Provisions (Special Provisions) clause in its subcontracts.
Specifically, Y-12 had not incorporated in its internally developed Special Provisions clause
a Department required Prohibition on Use of Funds (Use of Funds) clause which prohibits
Recovery Act funding from being used for items such as a casino, golf course, or aquarium.
In short, none of Y-12's subcontracts funded by the Recovery Act included the Use of Funds
clause.

Additionally, Y-12 had not included its Special Provisions clause in one of the Recovery
Act subcontracts we reviewed and had not incorporated the current version of the Special
Provisions clause in two others. According to a Site Office Contracting Officer, each
subcontract should be made current when the Special Provisions clause is revised in either
the next subcontract modification or within a reasonable timeframe. However, one of the
subcontracts we reviewed was modified four times without incorporating the latest revision.
Additionally, we found a second subcontract that was not modified although 7 months had
elapsed since the current Special Provisions clause was issued.

Y-12 created the overall Special Provisions clause to capture all of the Recovery Act
requirements such as compliance with the Use of Funds clause and Davis-Bacon Act
requirements concerning the payment of prevailing wage rates. Y-12 revised the Special
Provisions clause three times, with the latest revision dated December 2009, as the
Department's implementation of the Recovery Act evolved. We noted that Y-12's
Procurement Handbook did not include a requirement to ensure that Y-12 flowed-down the
Special Provisions clause into new or modified subcontracts. We concluded that the lack of
guidance on flow-down procedures likely contributed to the Special Provisions clause not
being uniformly included and/or updated in subcontracts.

                         Employment Eligibility Verification Clause

Y-12 also had not included a required clause that was intended to ensure employment
eligibility in the Recovery Act subcontracts we reviewed. The overall purpose of the
Employment Eligibility Verification clause was to enforce the immigration laws of the
United States, including the detection and removal of illegal aliens and the imposition of
legal sanctions against contractors that hire illegal aliens. Y-12's prime contract with the
                                       3


Department required the flow-down of the Employment Eligibility Verification clause into
all subcontracts with a value of more than $3,000 issued or modified after December 2009.
The Department of Homeland Security designated the E-Verify system as the electronic
employment eligibility verification system that must be utilized by all Federal contractors.
The system compares information obtained from an employee to data from the Department
of Homeland Security and Social Security Administration records to confirm employment
eligibility. The Federal Acquisition Regulation's Employment Eligibility Verification clause
mandates the use of E-Verify to ensure compliance with immigration laws.

Although the Employment Eligibility Verification clause was effective in December 2009,
Y-12 had not flowed down the clause to its subcontractors until September 2010.
Specifically, Y-12 management decided it was more efficient to reference the clause in its
General Terms and Conditions, which were undergoing revision, rather than incorporating it
independently into each subcontract. Y-12 did not begin incorporating the revised General
Terms and Conditions into subcontracts until September 2010. This is significant given the
risk of illegal alien workers gaining access to Y-12. The risk of such access is more than
notional as demonstrated by the Office of Inspector General report Security Access Controls
at the Y-12 National Security Complex (DOE/IG-0691, June 2005) which found that, in the
past, illegal alien construction workers had gained access to Y-12 on multiple occasions.

Y-12 management stated it had mitigating controls to ensure that only United States citizens
are issued photo badges which are required for access to the Y-12 site. In particular, Y-12's
badge issuance procedures include a requirement to provide acceptable proof of citizenship
such as a passport or certified birth certificate. However, Y-12 management acknowledged
that it was not required to verify the validity of proof of citizenship as part of its badging
process, and we confirmed, that Y-12 does not verify the information with independent
parties. Finally, management pointed out that even if unverified workers had gained access
to Y-12 they did not represent a security risk since areas with Recovery Act work were
extensively prescreened to identify and remove or segregate classified information or
materials prior to the beginning of work, and individuals who did not have a security
clearance were required to be escorted at all times.

While Y-12's controls may have been beneficial, they did not provide the independent
verification of employment eligibility documentation available through the E-Verify system
as required by Federal regulations. According to the Department of Homeland Security, E-
Verify, a process which facilitates the detection of fraudulent information checks, disclosed
that about three percent of the workers reviewed through the system could not be confirmed
as eligible for employment in the United States. Had E-Verify been fully employed, the risk
of illegal aliens working at Y-12 would be further reduced.

MITIGATING ACTIONS

When our findings were provided to Y-12 management, they informed the audit team that
actions had been initiated to ensure that current applicable clauses contained in its prime
contract were flowed-down to subcontractors. Specifically, Y-12 updated its Special
Provisions clause to include the Use of Funds clause. Additionally, Y-12 Procurement told
                                      4


us that it was reviewing existing subcontracts to ensure they are modified to include the new
General Terms and Conditions. As for the three subcontracts which lacked the current
Special Provisions clause, we were informed that Y-12 took action to correct the omissions
after we brought this to their attention. Further, Y-12 procurement personnel have begun
utilizing a mandatory checklist that specifically addresses verifying flow-down of the
Special Provisions clause to new subcontracts. This is particularly significant given that Y-
12 procurement will be utilizing additional subcontracts valued at $44 million in Recovery
Act funding for two other environmental cleanup projects during Fiscal Year 2011. Funding
for these projects will come from savings realized from other environmental cleanup
projects at Y-12. Additionally, Y-12 Procurement reported that they had added the
Employment Eligibility Verification clause to the General Terms and Conditions section in
all existing subcontracts and were incorporating it into new subcontracts. Management
committed to ensure that all existing subcontract employees are verified through the E-
Verify system.

Finally, during our audit, Y-12's Ethics and Internal Audit organization completed a review
of Recovery Act subcontracting activities. To its credit and as a result of our work, Y-12
Internal Audit adjusted the scope of its review to address the flow-down of Recovery Act
requirements. Internal Audit management reported that the review did not identify any
issues.

The mitigating actions initiated by Y-12 should, if successfully implemented, resolve the
concerns discussed in this report. Accordingly, we are not making formal
recommendations. However, we suggest that the Y-12 Site Office provide continued
oversight and monitoring of these issues.

We appreciated the cooperation of the various Department elements and Y-12 during this
effort.




                                     David Sedillo, Director
                                     NNSA & Science Audits Division
                                     Office of Inspector General

Attachment

cc:    Director, Office of Internal Controls, NA-66
       Director, Office of Risk Management, CF-80
       Assistant Director, Office of Risk Management, CF-80
       Team Leader, Office of Risk Management, CF-80
       Audit Resolution Specialist, Office of Risk Management, CF-80
       Audit Liaison, Y-12 Site Office
                                                                                    Attachment


SCOPE AND METHODOLOGY

This audit was performed between March 2010 and December 2010 at the Y-12 National
Security Complex (Y-12), Oak Ridge Office, and Y-12 Site Office, all located in Oak Ridge,
Tennessee; and, Department of Energy Headquarters (Headquarters), located in Washington,
DC. Our audit included a review of selected Y-12 Recovery Act projects. To accomplish the
audit objective, we:

        Assessed compliance with policies and procedures, laws and regulations, and contract
        terms applicable to Y-12 environmental cleanup activities funded by the Recovery Act;

        Interviewed key personnel at Headquarters, the Oak Ridge Office, Y-12 Site Office, and
        B&W Y-12;

        Reviewed and tested a judgmental sample of B&W Y-12 subcontracts funded by the
        Recovery Act including the flow-down of required clauses, central contractor
        registration, utilization of competition, and small business consideration;

        Determined the baseline and progress of selected Y-12 environmental cleanup projects
        funded by the Recovery Act including an evaluation of Recovery Act funds receipt,
        segregation, and tracking; and,

        Reviewed personnel activities such as the prevention of employing illegal immigrants,
        specialized training, and worker safety.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we reviewed
performance measures in accordance with the Government Performance and Results Act of 1993
relevant to environmental cleanup activities. We found that Y-12 had performance measures
specifically addressing the environmental cleanup activities funded by the Recovery Act.
Additionally, we conducted a limited reliability assessment of computer processed data, and
determined that the data was sufficiently reliable to achieve our audit objective.

Management waived an exit conference.
                                                               IG Report No. OAS-RA-L-11-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
